March 24, 2010

ROSS PHILO
EXECUTIVE VICE PRESIDENT AND CHIEF INFORMATION OFFICER

CHARLES L. MCGANN
MANAGER, CORPORATE INFORMATION SECURITY

SUBJECT: Audit Report – Windows Access Controls at the Information Technology
         and Accounting Service Centers – IS General Controls FY 2009
         (Report Number IS-AR-10-006)

This report presents the results of our audit of Windows® access controls xxxxxxxxxx,
xxxxxxxxxxxxxxxxxx Information Technology and Accounting Service Centers (IT/ASCs)
and the Information Technology Service Center (ITSC) xxxxxxxxxxxx (Project Number
09RD001IS005). Our objective was to determine whether the U.S. Postal Service
established adequate logical controls to limit or detect inappropriate access to its
Windows operating environment. We performed this self-initiated review as part of the
fiscal year (FY) 2009 information systems audit of general controls. See Appendix A for
additional information about this audit.

Conclusion

The Postal Service established adequate logical controls to limit or detect inappropriate
access to its Windows operating environment xxxxxxxxxxxxxxxxxxxxxxxxxXxxxxxx
xxxxxxxxxxxxxxxxxx. However, management can improve access controls by regularly
maintaining Active Directory®1 objects and complying with Windows security standards.

Active Directory Management

System administrators were not updating the Active Directory Organizational Units
(OUs), groups, and accounts xxxxxxxxxxxxxxxxxxxxxxxxxxxxx as required by Windows
security standards and Postal Service policy.2 This occurred because administrators do
not have clearly defined responsibilities for maintaining and regularly updating Active
Directory objects. By properly maintaining and updating Active Directory objects,
management can reduce the risk of unauthorized access to Postal Service information
resources, access authority exceeding job responsibilities, and operational disruptions.
See Appendix B for our detailed analysis of this topic.
1
  A hierarchical database that stores information about two broad categories of computer objects: resources (e.g.,
printers, workstations, and servers) and security principals (e.g., user or computer accounts and groups, such as
organizational units). Each object has a uniquely assigned security identifier, which controls access and sets security.
2
  Security Standards for Windows 2003 Servers, Section 1.2, Purpose, revised March 1, 2009. Handbook AS-805,
Information Security, Section 9-3.2.5, Periodic Review of Access Authorization.
Windows Access Controls at the                                                                           IS-AR-10-006
 Information Technology and Accounting Service Centers –
 IS General Controls FY 2009



We recommend the manager, Corporate Information Security, work with the manager,
Information Technology Engineering and Architecture, to:

1. Revise the Security Standards for Windows 2003 Servers to clearly define system
   administrator responsibilities for maintaining and regularly updating Active Directory
   objects.

Security Standards Compliance

Domain controllers3 running on Windows operating systems did not comply with
requirements documented in the Postal Service Windows security standards. This
occurred because management did not perform a comprehensive review of server
configurations against the Windows security standards and properly maintain the
security standards document. By ensuring that server configuration settings comply with
Postal Service policy,4 management can strengthen security over information resources
to protect against accidental or intentional unauthorized use, modification, disclosure, or
destruction. See Appendix B for our detailed analysis of this topic.

We recommend the manager, Corporate Information Security, in coordination with the
manager, Information Technology Engineering and Architecture, perform:

2. A review of the Security Standards for Windows 2003 and update the standards as
   appropriate.

3. A comprehensive review of the domain controller configurations to ensure
   compliance with applicable Windows security standards.

Management’s Comments

Management agreed with our recommendations. In response to recommendation 1,
management accepts the recommendation to review the Security Standards for
Windows 2003 servers, but believes the roles and responsibilities assignment does not
belong in the Security Standards for Windows 2003 Server’s documents. They believe
the roles and responsibilities belong in operational roles and responsibility guidelines
because the system administrator’s responsibilities are consistent across the Windows
platform. The targeted completion date is April 30, 2010.
To address recommendation 2, management will review the current hardening Security
Standards for Windows 2003 Servers to determine if any changes are required.
Management is currently testing Security Standards for Windows 2008 and servers
under Security Standards for Windows 2003 will be migrated to that environment.


3
  A server that responds to security authentication requests (including logging in and checking permissions) within the
Windows server domain. A domain controller physically stores Active Directory information. Large domains require
more than one domain controller, where each holds a copy of Active Directory. Active Directory synchronizes any
computer changes between all domain controllers, called “multi-master replication”.
4
  Security Standards for Windows 2003 Servers, Section 3.10, Operating System Security Settings.


                                                          2
Windows Access Controls at the                                               IS-AR-10-006
 Information Technology and Accounting Service Centers –
 IS General Controls FY 2009

Subsequent discussions with management revealed that the target date for completion
of the Security Standards for Windows 2008 is September 30, 2010.

In response to recommendation 3, management will review the domain controller
configurations to ensure compliance with applicable Windows security standards for
domain controller. The targeted completion date is April 30, 2010. See Appendix C for
management’s comments in their entirety.

Evaluation of Management’s Comments

The U.S. Postal Service, Office of Inspector General (OIG) considers management’s
comments responsive to the recommendations, and their corrective actions should
resolve the issues identified in the report.

The OIG considers recommendation 3 significant, and therefore requires OIG
concurrence before closure. Consequently, the OIG requests written confirmation when
corrective actions are completed. This recommendation should not be closed in the
Postal Service’s follow-up tracking system until the OIG provides written confirmation
that the recommendation can be closed.

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Frances E. Cain, director,
Information Technology, or me at (703) 248-2100.


    E-Signed by Darrell E. Benjamin, Jr
    VERIFY authenticity with ApproveIt

Darrell E. Benjamin, Jr.
Deputy Assistant Inspector General
 for Revenue and Systems

Attachments

cc: Deborah J. Judy
    Gregory “Dean” Larrabee
    Cliff M. Biram
    Sally K. Haring




                                                  3
Windows Access Controls at the                                                                    IS-AR-10-006
 Information Technology and Accounting Service Centers –
 IS General Controls FY 2009



                          APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

Logical access controls include the use of computer hardware and software to prevent
or detect unauthorized access. For example, a system or information resource may
require users to authenticate with a logon identification, user name, password, or other
identifier that conforms to the concepts of least privilege and need-to-know. Inadequate
access controls diminish the reliability of computerized data and increase the risk of
destruction or inappropriate disclosure of data.

The xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx is the enterprise
directory for the Postal Service. It is the authoritative source for all centrally supported
and managed Windows-based systems. The Postal Services bases access to all
infrastructure platforms, remote access methods, and national applications on user and
machine credentials in the xxx Active Directory. Microsoft Windows Active Directory5
enables single-point administration to organize, manage, authenticate, and control
information within the Windows environment. Information Technology Engineering and
Architecture staff located at the xxxxxxxxxxxx supports the Active Directory.

OBJECTIVE, SCOPE, AND METHODOLOGY

The objective of this audit was to determine whether the Postal Service established
adequate logical controls to limit or detect inappropriate access to its Windows
operating environment.

Xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
Xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
Xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxx.

To accomplish the objective, we reviewed Postal Service documentation and available
policies and procedures, interviewed key officials, and examined other material deemed
necessary to accomplish our objective. xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx.
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx6


5
  The latest version of Microsoft Windows Server 2008 R2 renamed Active Directory to Active Directory Domain
Services.
6
  xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx.


                                                       4
Windows Access Controls at the                                                       IS-AR-10-006
 Information Technology and Accounting Service Centers –
 IS General Controls FY 2009

We conducted this performance audit from June 2009 through March 2010 in
accordance with generally accepted government auditing standards and included such
tests of internal controls as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objective. We believe the evidence obtained provides a reasonable basis for our
findings and conclusions based on our audit objective. We discussed our observations
and conclusions with management on February 22, 2010, and included their comments
where appropriate. We used manual and automated techniques to analyze the data
obtained from the domain controllers. Based on the results of these tests and
assessments, we concluded the data were sufficient and reliable to use in meeting the
objective.

PRIOR AUDIT COVERAGE

                            Report          Final Report
    Report Title            Number              Date                Report Results
Access Controls xxxx      IS-AR-08-015         8/15/2008   We reviewed the following two
Xxxxxxxxxxxxxxxxxxx                                        applications operating in a Windows
Xxxxxxxxxxxxxxxxxxx                                        environment: xxxxxxxxxxxxxxxx
Xxxxxxxxxxxxxxxxxxx                                        Xxxxxxxxxxxxxxxxxxxxxxxxxxxx
Xxxxxxxxxxxxxxxxxx                                         xxxxxxxxxxxxxxxxxxxxxxxxxx. Our
Xxxxxxxxxxxxxxxxxxx                                        review verified that management
Xxxxxxxxxxxxxxxxxx                                         implemented proper access controls,
xxxx                                                       providing reasonable assurance that
                                                           data files and application programs
                                                           are protected against unauthorized
                                                           modification, disclosure, loss or
                                                           impairment. We found no issues
                                                           associated with the applications
                                                           reviewed.
System Software           IS-AR-08-011          6/3/2008   We reviewed three application servers
Controls xxxxxxxxxx,                                       covering xxxxxxxxx in the Windows
xxxxxxxxxxxxxxx                                            environment. Our review verified that
xxxxxxxxxxxxxxxx                                           management implemented proper
xxxxxxxxxxxxxxxxxx                                         access controls, procedures for
xxxxxxxxxxxxxxxxx                                          monitoring software infrastructure, and
xxxxxxxxxxxxxxx                                            controls for change and configuration
                                                           management. We found no issues
                                                           associated with the specific
                                                           applications reviewed.




                                                  5
Windows Access Controls at the                                                                     IS-AR-10-006
 Information Technology and Accounting Service Centers –
 IS General Controls FY 2009


                              Report             Final Report
    Report Title              Number                 Date                        Report Results
Information Systems         IS-AR-08-002            11/6/2007          We evaluated Active Directory security
Access Controls at                                                     settings and found Windows default
Selected Information                                                   password settings did not comply with
Technology Facilities                                                  Postal Service Policy.7 Management
for Fiscal Year 2007                                                   agreed and implemented the
                                                                       recommendation to change the default
                                                                       password settings according to policy
                                                                       requirements.
System Software             IS-AR-07-013            8/3/2007           We reviewed Windows systems
Controls xxxxxxxxxx,                                                   controls over auditing, domain
xxxxxxxxxxxxxxxxx                                                      controllers, and global settings. We
Xxxxxxxxxxxxxx                                                         verified that management
Xxxxxxxxxxxxxxxxxx                                                     appropriately configured the Windows
Xxxxxxxxxxxxxxxxxx                                                     operating system at the domain level
Xxxxxxxxxxxxxxxxxxxx                                                   and that the domain global settings
xxxx                                                                   record all accesses to system files.
                                                                       We verified that management used
                                                                       system utilities such as Active
                                                                       Directory, BMC Patrol, Microsoft
                                                                       Operations Manager, Systems
                                                                       Management Server 2003, and
                                                                       Symantec Anti-Virus8 to enhance
                                                                       security. We did not make any
                                                                       recommendations in this report.
Information System          IS-AR-06-018            9/27/2006          We found Windows access controls
Access Controls xxxx                                                   were adequate to protect computer
Eagan, nesota and San                                                  and information resources at the data
Mateo, California, Info                                                centers against unauthorized
mation Technology and                                                  modification, loss, and disclosure. We
Accountixxxxxxxice                                                     found no issues associated with the
Cnters                                                                 specific applications.




7
 Handbook AS-805
8
 BMC Patrol monitors the performance and availability of servers, applications, and storage and network devices.
Microsoft Operations Manager is a performance and event-monitoring product from Microsoft targeting Windows
systems. Systems Management Server 2003 validates software loaded on workstations and servers. Symantec Anti-
Virus detects and prevents virus attacks.


                                                       6
Windows Access Controls at the                                                                     IS-AR-10-006
 Information Technology and Accounting Service Centers –
 IS General Controls FY 2009

                               APPENDIX B: DETAILED ANALYSIS

Active Directory Management

System administrators were not updating the Active Directory OUs, groups, and
accounts xxxxxxxxxxxxxxxxxxxxxxxxxxxxxx. For example, administrators did not:

        Group distribution lists for xxxxxxxxxxxxxxxxxx with the distribution lists for the
         xxxxxxxxxxxxxxxxxxxxxxxxxxx.

        Remove an xxx backup account assigned to a terminated employee.

        Remove unused Active Directory objects such as test accounts and a printer OU.

        Delete unused OUs, xxxxxxxxxxxxxxxxxx.

        Move an Active Directory group from an incorrect OU to the correct OU.

This occurred because administrators do not have clearly defined responsibilities for
maintaining and updating Active Directory objects regularly. Postal Service policies
require the periodic review and update of accounts to restrict access according to the
least-privilege and need-to-know principles.9

By properly maintaining Active Directory objects, management can reduce the risk of
unauthorized access to Postal Service information resources, access authority that
exceeds job responsibilities, and operational disruptions.

Prompted by our review, management began corrective action to update and remove
obsolete objects. Additionally, an initiative within eAccess10 has a new automated
feature that will facilitate the reconciliation on certain types of accounts to enhance
security over Active Directory.

Security Standards Compliance

Domain controllers running on the Windows operating systems did not comply with the
requirements documented in the latest Postal Service Windows security standards.
These standards contain approximately 150 required security settings. On the three
servers reviewed, we found 32 of the 150 settings – xxxxxxxxxxxxxxxxxxxxxxxxxxx–
that did not comply with the Windows security standards. This occurred because
management was not performing a comprehensive review of server configurations
against the Windows security standards and maintaining the security standards
document. Management periodically runs a script to review server configurations. The
script retrieves the results of approximately 80 security settings that address Sarbanes-

9
 Security Standards for Windows 2003 Servers, Section 1.2 and Handbook AS-805, Section 9-3.2.5.
10
  eAccess provides automated access management capabilities to Postal Service information resources, including
xxx accounts, applications, and databases.


                                                       7
Windows Access Controls at the                                                                       IS-AR-10-006
 Information Technology and Accounting Service Centers –
 IS General Controls FY 2009

Oxley requirements. Postal Service policy11 requires management to adhere to the
security standards and review operating system configurations periodically.
Management can strengthen security over information resources to protect against
accidental or intentional unauthorized use, modification, disclosure, or destruction by
ensuring server configuration settings comply with Postal Service policy.12




11
     Handbook AS-805, Section 8-5.4.2, Harden Information Resources; Section 10-2.3.1, Hardening Servers.
12
     Security Standards for Windows 2003 Servers, Section 3.10, Operating System Security Settings.


                                                         8
Windows Access Controls at the                             IS-AR-10-006
 Information Technology and Accounting Service Centers –
 IS General Controls FY 2009



                       APPENDIX C: MANAGEMENT’S COMMENTS




                                                  9
Windows Access Controls at the                             IS-AR-10-006
 Information Technology and Accounting Service Centers –
 IS General Controls FY 2009




                                                  10
